No. 21-5025
IN THE SUPREME COURT OF THE UNITED STATES
JAMES GALEN HANNA,
Petitioner
vs.
TIM SHOOP, Warden
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF SERVICE

I certify that all parties required to be served have been served and that
Petitioner James Galen Hanna’s Reply to Respondent’s Brief in Opposition was
served, via electronic service, upon counsel for the Respondent, Benjamin M. Flowers,
Esq., and Samuel C. Peterson, Esq., 30 East Broad Street, 17th Floor, Columbus, Ohio
43215, (614) 466-8980, on this the 11th day of August, 2021.

Respectfully Submitted,

Deborah L. Williams
Federal Public Defender
Allen L. Bohnert
* Paul R. Bottei
Jacob A. Cairns
Assistant Federal Public Defenders
Office of the Federal Public Defender
Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999
* Counsel of Record
/s/ Paul R. Bottei

